“single” audit reports on financial assistance recipients,3 and in the Census Bureau’s Federal
Assistance Award Data System (FAADS),4 among others.

        We reviewed compliance with two requirements in Departmental policies and an Office
of Management and Budget (OMB) requirement pertaining to the CFDA and the CFDA
numbers. Departmental policy on the standard format for financial assistance opportunity
announcements requires the inclusion of the applicable CFDA number.5 Departmental policy
also requires information on financial assistance programs that are administered by the
Department to be “entered into the CFDA and updated on a regular basis to provide current
information on programs.6” This requirement, according to the Departmental Manual (DM),
helps maintain transparency and meet customer service mandates in Public Law 106-107,
Federal Financial Assistance Management Improvement Act. In addition, OMB guidance on
implementation of Section 1512 of the Recovery Act, which requires recipients to report on their
use of funds, includes the CFDA number as a required data element.7

       Unclear guidance about the CFDA requirements may lead to enforcement problems. For
example, DOI Departmental Manual 507 DM 1 states that the heads of bureaus and offices are
responsible for carrying out policies, procedures, and guidelines in the CFDA manual, but it does
not identify who is responsible for ensuring Department compliance or for taking action if
bureau and office heads fail to carry out their responsibilities.8

        We assessed DOI compliance with financial assistance data reporting in an effort to
ensure compliance with these policies as well as the Recovery Act’s focus on transparency. We
took snapshots at various stages in the awarding and reporting process from three systems: pre-
award data from the weekly Grants.gov report published by the DOI Acquisition and Property
Management (PAM) Financial Assistance Program Manager; A-133 audit reports for 2008
posted to the Federal Audit Clearinghouse; and FAADS data from the second quarter of 2008.

Findings

    	 Weekly reports: DOI is not in full compliance with its policy that mandates all financial
       assistance programs listed on Grants.gov be annotated with the appropriate CFDA
       number. A review of the 652 weekly reports posted on Grants.gov on June 29, July 6,
       and August 10, 2009, revealed that 10 percent of the Department’s financial assistance
       program announcements did not contain the applicable CFDA number.

3
  Office of Management and Budget, OMB Circular A-133, “Audits of States, Local Governments, and Non-Profit
Organizations,” (Washington, DC, June 23, 2003).
4
  For more information on FAADS, see U.S. Census Bureau, Federal, State, and Local Governments Federal
Assistance Award Data System, http://www.census.gov/govs/www/faadsmain.html, (July 28, 2009).
5
  Department of the Interior, Final Policy Regarding Grants.gov FIND and Format for Financial Assistance Program
  Announcement (Washington, DC, undated), p. 6.
6
  Departmental Manual Part 507, Chapter 1 (507 DM 1), Federal Assistance Programs, Program Information and
Data, Catalog of Federal Domestic Assistance (Washington, DC, March 29, 2006), paragraph 1.3.
7
  Office of Management and Budget, Implementing Guidance for the Reports on Use of Funds Pursuant to the
American Recovery and Reinvestment Act of 2009, M-09-21, (Washington, DC, June 22, 2009), paragraph 2.3.
8
  Department of the Interior, Departmental Manual 507 Chapter 1 (507 DM 1), Federal Assistance Programs,
Program Information and Data, Catalog of Federal Domestic Assistance (Washington, DC, March 29, 2006), p. 1.

                                                                                                               2
     	 The A-133 Single Audit: The “A-133 single audit” is often the only audit of a program.
        OMB Circular A-133 requires an audit for all organizations receiving $500,000 or more
        in a year in federal financial assistance. The single audit means an organization that
        receives funding from multiple federal entities, or multiple programs from one federal
        entity, must undergo one audit for all of the funds. In A-133 audits, an independent
        auditor examines recipients’ operations and records to determine compliance with
        appropriate laws and regulations governing financial assistance. Bureaus use the results
        of the single audit to monitor recipient performance, risk, and spending throughout the
        life of the award.

                The CFDA number is a necessary tool for recipients, program offices, and
        auditors to locate data when monitoring performance and conducting audits and when
        searching the Single Audit Clearinghouse (SAC) for program performance data. In
        addition, the CFDA number helps users identify financial assistance awards by program
        in the A-133 audit report rather than just by executive agency or department. Such
        identification allows monitoring of spending at a program level.

                A random sampling of 273 A-133 single audits showed that 44 percent of the
        Department’s financial assistance programs were not identified by a CFDA number.
        Failure to identify a program by a CFDA number early in the awarding process can lead
        to omissions from single audit reports.

                We discovered two additional items of concern during review of the A-133 audit
        reports that weaken the transparency and accountability of the Department’s financial
        assistance programs. Instead of using the CFDA numbers, several programs used task
        order numbers, which have nothing to do with federal financial assistance.9 In addition,
        review of a 2008 Cedars-Sinai Hospital A-133 audit report revealed a $1,496,643
        financial assistance award listed under a Minerals Management Service (MMS) CFDA
        number. When contacted, MMS officials confirmed the bureau did not grant a financial
        assistance award to Cedars-Sinai Hospital under that CFDA number.

     	 Federal Assistance Award Data System (FAADS): FAADS is a repository for federal
        financial assistance award transactions organized by the CFDA program name and
        number under which the award was made. FAADS assists compliance with applicable
        sections of the U.S. Code and promotes the government’s effort to provide access to
        information on federal assistance activities.10

           We used a random sample to test the data reported by the bureaus from the second
        quarter, fiscal year (FY) 2008 FAADS reports for Wyoming, Montana, Michigan,
        Alaska, Colorado, Massachusetts, California, and the District of Columbia. Twenty-eight

9
 Ralph C. Nash, Jr., Steve L. Schooner, Karen R. O’Brien-DeBakey, and Vernon J. Edwards, The Government
Contracts Reference Book, A Comprehensive Guide to the Language of Procurement, Third Edition, Chicago:
CCH, 2007), p. 565.
10
  US Census Bureau, Federal Assistance Award Data System (FAADS) User’s Guide for Federal Fiscal Year
<http://ftp2.census.gov/govs/faads/guide2008.pdf> (March 2009), p. 2-4.

                                                                                                          3
        percent of the Department’s 344 programs listed in the FAADS reports were
        noncompliant with use of the CFDA numbers.

Conclusion

       Congress mandated transparency for the spending of federal tax dollars, and the
Recovery Act is putting more emphasis on reporting requirements, which makes accuracy of the
CFDA numbers more critical. Our review of these three systems shows the Department still
needs to improve on linking financial assistance programs to their CFDA numbers. Given the
large amount of financial assistance provided by the Department, deficient use of the CFDA
numbers requires immediate action.

Recommendations

We recommend the Department:

    1.	 Assign responsibility to a position within the Financial Assistance Program Office for
        providing oversight of all the bureaus’ financial assistance programs to ensure CFDA
        compliance.

    2.	 Adequately staff PAM so the CFDA requests are immediately processed so that 

        announcements can be posted in a timely and accurate manner.


    3.	 Develop and implement a plan to obtain the CFDA program numbers for existing
        noncompliant programs.

    4.	 Take steps to ensure bureaus identify, in all new announcements, the applicable CFDA
        program number and that they work through the process of registering their programs in
        the CFDA.

    5.	 Develop and implement a policy to rectify the inappropriate use of the same CFDA
        numbers across other agencies or bureaus.

cc: 	   Deputy Secretary, Department of the Interior
        Acting Assistant Secretary – Policy, Management and Budget
        Director, Office of Acquisition and Property Management
        Director, Office of Financial Management
        Departmental GAO/OIG Audit Liaison
        Audit Liaison, Office of the Secretary




                                                                                                 4
          



                                                     


                       Report Fraud, Waste, and 
  
                          
                           Mismanagement


                                                       
                                 Fraud, waste, and mismanagement in
                             government concerns  everyone: Office of
                                 Inspector General staff, Departmental
                         employees, and the general public. We actively
                         solicit allegations
                                                of any inefficient and wasteful
                                  practices, fraud, and abuse related to
                              
                           Departmental       or Insular Area programs and
                          operations. You can report allegations to  us in
                                               several  ways.
                                                     
                                                         
                                                     
                                                     
                  By Mail:  	          U.S. Department of the Interior  
                                       Office of Inspector General  
                                       Mail Stop 4428 MIB  
                                       1849 C  Street, NW
                                       Washington, D.C. 20240  
                   
                  By Phone :  	        24‐Hour Toll Free	                800‐ 424‐5081   
                                       Washington Metro Area             703‐ 487‐5435   
                   
                           	  
                  By Fax:	             703‐487‐5402  
                   
                  By Internet:		       www. doioig.gov/hotline
               




                                                                                             
